Supremo Court U.S.
FILED

OCT 1 5 2019
No. 19A

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL D. GOODWIN,
Applicant,
v.
UNITED STATES OF AMERICA,
Respondent.

APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

APPLICATION TO
THE HONORABLE JUSTICE
SAMUEL A. ALITO, JR. AS CIRCUIT JUSTICE

Michael D. Goodwin
803 Pingel Place
Crown Point, IN 46307
October 15, 2019

Pro Se

APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION
FOR WRIT OF CERTIORARI

To the Honorable Justice Samuel A. Alito, Jr. of the United States Court of
Appeals for the Fifth Circuit:
Michael D. Goodwin, Applicant, requests a 60-day extension of time to file a
petition for writ of certiorari to review the judgment of the United States Court of Appeals
for the Fifth Circuit below. Applicant requests an extension of time up to and including,
Friday, December 27, 2019.
The United States Court of Appeals for the Fifth Circuit entered its final judgment
on July 30, 2019. Attached is a copy of the judgment.
The time to file a petition for writ of certiorari will expire on October 28, 2019.
In accordance with Rule 13.5 of the Rules of this Court, this application is being
filed more than 10 days before October 28, 2019.
This Court will have jurisdiction over any timely filed petition for writ certiorari in
this case pursuant to 28 U.S.C. ยง 1254(1).
Applicant cannot afford to hire an attorney to file his petition for writ of certiorari.
Attorney Carrie Castro has agreed to serve as pro bono counsel for Applicant.
Counsel filed an application for admission to the Bar of this Court on October 15, 2019.
The admission process may take several weeks and counsel must have time to prepare
the petition for writ of certiorari.
This case presents an important question regarding a federal defendant's Sixth
Amendment right to counsel. The judgment of the Fifth Circuit Court of Appeals conflicts
Supreme Court precedent of Powell v. Alabama, 287 U.S. 45 (1932), Avery v. Alabama,

308 U.S. 444 (1949), Gideon v. Wainwright 372 U.S. 335 (1963), United States v
Cronic, 466 U.S. 648 (1984), Strickland v Washington, 466 U.S. 668 (1984), and
Childress v. Johnson, 103 F.3d 1221 (1997).
In this case, Defendant's attorney was absent from the district courtroom for
defendant's re-arraignment and guilty plea, which are critical stages of the defendant's
criminal proceedings. At evidentiary hearing, defendant's counsel testified that he didn't
know why he was not in court.
Local counsel appeared in the district court as counsel for the defendant,
however, local counsel testified and provided a written affidavit, that he had no attorneyclient relationship with the defendant and that his legal representation and legal advice
was confined to the defendant's wife, who was a co-defendant in the case and whose
interests conflicted with those of the defendant. Local counsel failed to advise the
district court of this conflict of interest between himself and the defendant. The district
court, at a previous Rule 44 hearing, had informed the attorneys that it was their duty as
an officer of the court to inform the district court if a conflict occurs.
11

For the stated reasons, Applicant requests that an order be entered extending

the time to file a petition for certiorari to and including, Friday, December 27, 2019.
Respec ully submitted,

Date:

Michael . Goodwin, Pro Se
803 :'ngel Place
Crown Point, IN 46307
Tel: (219) 663-1517

2

